April 8, 2011

MARY ANNE GIBBONS
GENERAL COUNSEL AND EXECUTIVE VICE PRESIDENT

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

KEVIN A. CALAMONERI
MANAGING COUNSEL, CORPORATE LAW

SUBJECT: Management Advisory – Postal Service Patent Management Continuation
        (Report Number DA-MA-11-002)

This management advisory presents results of our review of the U.S. Postal Service’s
patent management procedures (Project Number 10YG035DA000). This audit
addresses financial risk. The U.S. Postal Service Office of Inspector General (OIG)
contracted with an intellectual property management firm to study the Postal Service’s
patent portfolio. Our objective was to determine the commercial significance or value of
Postal Service patents. See Appendix A for additional information about this review.

The Postal Service’s general counsel helps the agency identify and protect its
intellectual property. Intellectual property is intangible property created by individuals or
organizations that can be owned, transferred, leased through licensing agreements,
divided, or improved. One type of intellectual property is a patent 1. Properly managed,
patents can be used as bargaining chips to negotiate contracts and business deals,
resolve disputes, enhance market share, and produce revenue.

Conclusion

The Postal Service currently does not manage its portfolio of patents to maximize
commercial significance. Our evaluation, conducted in conjunction with an intellectual
property management firm, determined that the three patents identified as active and
owned by the Postal Service held an annual commercial value of $18.1 million.
Specifically, the firm evaluated (See Attachment A):

        A patent that deals with
                                                                                     could generate the Postal
         Service annual fees of approximately $1.25 million.

1
 Patents confer to the inventor the right to exclude others from making, using, or selling an invented object or tool,
process, business or marketing system and/or method.
Postal Service Patent Management Continuation                                                         DA-MA-11-002



         A patent that deals with

                                ould generate the Postal Service annual fees of approximately
          $5.25 million.

         A patent that deals
                             could generate annual fees of approximately $11.6 million.

Postal Service policy 2 covering new products and patent licensing agreements seeks to
ensure that new and enhanced products consistently meet customer needs, generate
new revenue, and strengthen the Postal Service as a viable business. The opportunity
to capitalize on active Postal Service patents exists because management has not
strategically considered using patents to generate new revenue.

In a prior report 3, we identified three additional patents that could be used to generate
significant amounts of revenue. As presented in Table 1, the annual commercial
significance of the six studied patents is $763 million net of attorney fees. 4

        Table 1. Summary of Annual Commercial Significance for Patents Studied

                           Studied Patents                                Annual Commercial Significance
1                                                                                  $1.25 Million
2                                                                                    $5.25 Million

3                                                                                    $11.6 Million
                                                                                     $18.1 Million

4                                                                                    $113.1 Million
5                                                                                     $933 Million
6                                                                                     $25.6 Million
         Sub-total                                                                   $1.07 Billion


         Sub-Total                                                                   $1.09 Billion
                      5
         Attorney Fees 30%                                                           $327 Million
         Grand Total                                                                 $763 Million

Additionally, if the Postal Service further assessed and controlled the commercial
significance of its entire patent portfolio it could realize more revenue. Based on
commercial similarities to the six patents studied, the contractor estimated that another
15 patents have commercial potential. See Attachment B. Based on their reported




2
  Handbook F-66 D, Investment Policies and Procedures – Business Initiatives, Alliances, Real Estate Development,
and Major Operating Expense Investments, Chapter 4, February 2006.
3
  DA-MA-10-004, Postal Service Patent Management, August 31, 2010
4
  As presented in Appendix B, if the Postal Service pursued royalty or licensing fees for the six patents studied to
date, we estimate the commercial significance is $2,054,278,667 by the end of fiscal year (FY) 2012. We consider
this amount both recoverable and unrecoverable revenue loss..
5
  Fees paid to attorneys for litigation of patent infringements (cost to recover revenue).



                                                          2
Postal Service Patent Management Continuation                                                          DA-MA-11-002



average, we estimate the commercial significance to be as much as $469.5 million 6
annually.

Although the Postal Regulatory Commission (PRC) has the authority to regulate patent
commercialization, the Postal Service currently has no prohibitions to license its
patents. Commercial benchmarks for an effective licensing and intellectual property
management program show that patents are drafted with revenue generation in mind
from the outset (not as an afterthought) and are intended to protect ideas that have
already come to fruition or commercialization.

To enhance patent management we recommend the general counsel and executive
vice president:

1. Work closely with subject matter experts to review highly rated patents to draft
    claims as appropriate.

In addition, we recommend the chief financial officer and executive vice president:

2. Develop a comprehensive strategy for developing patent intellectual property that
   enhances Postal Service products and services and its competitive position in the
   global marketplace and is a source of income. The strategy should capitalize on
   patent evaluations performed to date and include an assessment of business
   options available for achieving the significant financial returns.

3. Ensure the Postal Service has an effective patent management process and
   comprehensive licensing program in place. This establishes control that protects
   intellectual capital and provides an appropriate return on investment.

Management’s Comments

The Postal Service agreed with our recommendations and will take appropriate action to
resolve the identified issues by October 2011. Specifically, for recommendation 1
management will continue to work closely with subject matter experts
                                             For recommendation 2, management
agrees that the Postal Service’s patent portfolio may have value and partially agrees
with the recommendation.




6
  $469.5 million revenue at risk is based on an average commercial significance of $31 million for patents reviewed
applied to 15 patents with commercial potential. Since the Postal Service has not effectively controlled its patent
portfolio nor recognized its value in its annual financial statements, we consider this amount recoverable revenue at
risk..
7
  DA-MA-10-004, Postal Service Patent Management, August 31, 2010



                                                           3
Postal Service Patent Management Continuation                              DA-MA-11-002




                anagement partially agrees with recommendation 3, contingent on the
outcome of actions taken in response to recommendation 2.

                                                                                See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the
management advisory. The OIG considers all the recommendations significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action(s) are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

     E-Signed by Mark Duda
  VERIFY authenticity with e-Sign




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Kelly M. Sigmon
    Deborah A. Davis
    Corporate Audit and Response Management




                                                4
Postal Service Patent Management Continuation                                    DA-MA-11-002



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s Law Department helps the agency identify and protect its
intellectual property. Intellectual property is intangible property created by individuals or
organizations that can be owned, transferred, leased through licensing agreements,
divided, or improved. Statutes and case law set the requirements for an asset to qualify
as intellectual property and provide guidelines that determine the boundaries of a piece
of intellectual property.

One type of intellectual property is a patent. Patents confer to the inventor the right to
exclude others from making, using or selling an object or tool, process, business or
marketing system and/or method that is invented. While patents granted by the federal
government are only effective in the U.S., most nations have established some form of
patent system.

Utility patents are granted for any new and useful process, machine, article of
manufacture, composition of matter, or related useful improvement. Utility patents are
effective for 20 years from the date an application is filed. As a general matter, only the
inventor may apply for a patent. If someone other than the inventor files an application,
the patent, if issued, would be invalid and the applicant could be subject to criminal
penalties.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the commercial significance or value of Postal Service
patents. To evaluate patent management, we contracted with an intellectual property
firm to conduct a study of the Postal Service’s active patent portfolio to assess
commercial value.

To assess commercial significance or revenue the Postal Service may be able to
generate through licensing each patent, the contractor used a rating and ranking system
and evaluated the technology in each patent across several market attributes as well as
attributes pertaining to the patents themselves. Specifically, they evaluated:

Market Size – financial size of the market expressed in the form of total sales or
revenue by most or all companies that make and sell products in the market.

Profit Margin – gross sales minus costs over 10 years.

Patent Strength – how strong the patent appears to be, as measured by both objective
and subjective factors such as remaining life left on the patent, the technical features
covered by the patent or the apparent comprehensiveness of the protocols followed in
obtaining the patent.




                                                5
Postal Service Patent Management Continuation                               DA-MA-11-002



Patent Breadth – how broadly the patent can be interpreted, including such criteria as
how many industries it could apply to.

Stage of Development – the stage of commercial development the patent is in, such
as pre-commercialization, full commercialization or in-use.

Market Environment – factors that define the competitive market situation the patent
covers.

Industry Standard Royalty Rate – reasonable stream of royalties the Postal Service,
as licensor of a patent, could receive from licensees who wish to buy their patent(s).

We conducted this review from September 2010 through April 2011, in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on January 13, 2011, and included their comments where appropriate.

We did not rely upon computer-generated data during our engagement; however to
evaluate whether the evidence provided by the contractor was rational we considered:

      The professional reputation, qualifications, and independence of those who
       performed the work.

      The soundness of the methodology used and the reasonableness of work
       results.

      Corroborating information provided by OIG counsel with subject matter
       knowledge.




                                                6
Postal Service Patent Management Continuation                                       DA-MA-11-002



PRIOR AUDIT COVERAGE

                                           Final
                       Report
  Report Title                            Report                Report Results
                       Number
                                           Date
  Postal            DA-MA-10-004        8/31/2010   The opportunity to capitalize on active
  Service                                           Postal Service patents exists because
  Patent                                            management has not strategically
  Management                                        considered leveraging patents to
                                                    generate new revenue. We
                                                    recommended Postal Service develop a
                                                    plan to capture the value of its patents.
                                                    Management agreed with our
                                                    recommendation.




                                                7
Postal Service Patent Management Continuation                                                          DA-MA-11-002



                       APPENDIX B: MONETARY AND OTHER IMPACTS

                                               Monetary Impact

                                                            Commercial                       Commercial
                                                            Significance                     Significance
                        Patent
                                                         2 Years Ending FY                2 Years Ending FY
                                                               2010                             2012
1                                                                   $.9 million                    $2.5 million
2                                                                   8.7 million                    10.5 million
3                                                                  23.2 million                    23.2 million
       Sub-Total                                                $32.8 million                   $36.2 million

4
                                                                    $102.6 million                 $226.2 million
5                                                                   577.2 million                       1.9 billion
6                                                                    44.3 million                     51.2 million
       Sub-Total 8                                               $724.11 million                     $2.14 billion

       Total                                                     $756.9 million                     $2.18 billion
       Attorney Fees 9 30%                                        (227.0 million)                  (654.0) million
       Net Total                                                $529.7 million10                    $1.53 billion

Note: Amounts in table are rounded; total commercial significance is $2,054,278,667.

                                                 Other Impacts

                          Finding          Impact Category                   Amount
                             1             Revenue at Risk 11                $469,500,000




8
  Refer to DA-MA-10-004, Postal Service Patent Management, August 31, 2010, for annual value details.
http://www.uspsoig.gov/foia files/DA-MA-10-004.pdf
9
  Fees paid to attorneys for litigation of patent infringements (cost to recover revenue).
10
   Patents were granted during the FY 2009-2010 period. As such, values are less than the FY 2011 -2012 period.
11
   Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service.



                                                          8
Postal Service Patent Management Continuation                  DA-MA-11-002




                           APPENDIX C: MANAGEMENT’S COMMENTS




                                                9
Postal Service Patent Management Continuation        DA-MA-11-002




                                                10
Postal Service Patent Management Continuation        DA-MA-11-002




                                                11
Postal Service Patent Management Continuation              DA-MA-11-002




                                          ATTACHMENT A




                            CONFIDENTIAL AND PROPRIETARY
                                                Page 1
